AUDIT OF NARA'S DEVELOPMENT OF THE 

  HOLDINGS MANAGEMENT SYSTEM 


         OIG Report No. 08-04 


            March 11,2008 

                                                                    OIG Audit Report No. 08-04




EXECUTIVE SUMMARY

The National Archives and Records Administration (NARA) Office ofInspector General
(OIG) completed an audit of the Holdings Management System (HMS) development to
assess the management and decision-making process utilized by NARA in completing
and approving the HMS proposal. During the audit, we evaluated whether: (a) Federal
and NARA capital planning policies and procedures were followed; (b) analysis of
alternatives and costslbenefits had been adequately performed; (c) requirement analysis
had been executed; (d) project plans had been fully developed; and (e) performance
metrics have been established.

NARA has recognized the need to improve its business processes in managing and
tracking the physical aspects of permanent, hard-copy, archival records in the custody of
the Office of Records Services - Washington, DC (NW), Office of Regional Records
Services (NR), and Office of Presidential Libraries (NL). To meet this need, agency
officials proposed the development ofHMS. With HMS, NARA plans to enhance its
capabilities in three functional areas: location and space, circulation, and preservation
management. The five year estimated cost ofHMS is $7.852 million.

Our review found that the HMS system, while viable, was not developed in accordance
with agency policies and procedures. NARA officials prepared the required project
proposal for HMS; however, we found that NARA management did not meet all
requirements ofNARA 801-2, Review ofInformation Technology Investments, when
planning for and approving the HMS project. Specifically, we found that the (a) HMS
Project Proposal was not in full compliance with Federal and NARA requirements; (b)
project risks were incorrectly and inadequately identified; (c) analysis of alternatives,
requirements, costs, and benefits were not sufficiently analyzed prior to approval of the
project; and (d) approval of project was not in accordance with NARA 801-2. In
addition, we found that while HMS fits into NARA's enterprise architecture, NR's
potential use ofthe Archives and Records Information System (ARCIS) for inventory and
space management of hardcopy permanent documents would not be in line with NARA's
enterprise architecture and would duplicate some HMS functions.

Without a complete and accurate project proposal and analysis, senior management
lacked the basis to make an informed decision to approve and fund this project. Also,
without complete buy-in and full assessment of the business practices ofNARA's
organizations, the implementation ofHMS will be difficult. A poorly planned project is
at risk for costs overruns, not meeting project goals, and not being completed within
schedule. Therefore, successful implementation of HMS is at risk. A delay in the
development ofHMS could also affect many other projects within NARA.

Using HMS as an example, our audit identified several improvements to be made in
NARA's Information Technology (IT) Capital Investment Process. Overall, we made six
recommendations to improve NARA's project planning and approval process.



                                            Page 1
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 08-04


BACKGROUND

The National Archives and Records Administration (NARA) must effectively manage its
portfolio of capital assets, including infonnation technology, to ensure that scarce public
resources are wisely invested. Capital planning and investment control integrates the
planning, acquisition and management of capital assets into the budget decision-making
process. It is intended to assist agency officials and project managers in improving asset
management and in complying with results-oriented requirements so that agency mission
goals may be achieved and citizens are better served.

Several management refonns, including the Clinger-Cohen Act of 1996, the Paperwork
Reduction Act of 1995 and Office of Management and Budget (OMB) Memoranda, have
introduced requirements to improve how management selects and manages IT resources
and investments. For example, the Clinger-Cohen Act requires each agency to establish a
process for maximizing the value and assessing and managing the risks of its IT
acquisition. This process should include minimum criteria to be applied in considering
whether to undertake a particular investment in infonnation systems, including criteria
related to the quantitatively expressed projected net, risk-adjusted return on investment
and specific quantitative and qualitative criteria for comparing and prioritizing alternative
infonnation systems investment projects. In addition, an agency's acquisition process
should provide for identifying quantifiable measurements for detennining the net benefits
and risks of the investment.

The Paperwork Reduction Act and Clinger-Cohen Act assign various IT responsibilities
to the head of each agency and the agency ChiefInfonnation Officer (CIO). For
instance, the Paperwork Reduction Act requires the head of each agency to carry out the
infonnation resources management activities to improve the agency's productivity,
efficiency, and effectiveness. The Clinger-Cohen Act assigns the agency CIO with the
responsibility of promoting the effective and efficient design and operation of all major
infonnation resources management process.

The requirements ofNARA's IT investment management process are detailed in NARA
801-2, Review ofInform a tion Technology Investments, and its supplements. The IT
investment process begins with the "Decide" phase, which helps ensure that NARA (1)
selects IT projects that best support mission needs, and (2) identifies and analyses a
project's risk and proposed benefits before a significant amount of project funds are
spent. When appropriate, the starting point for IT proposals is the preparation and
consideration of Summary Proposals 1. Proposals passing this screening process have
their costs, benefits, and risk analyzed in-depth and documented in a "Full Proposal".
Finally, the proposal is reviewed and/or approved by various senior management
officials.


I According to NARA 801-2, summary proposals are not required for the following two instances: (1) when
a project has completed a phase of the systems development lifecycle and the beginning of new phase is
being proposed, and (2) at the direction of the CIO, when existing product plan parameters have been
exceeded, a product plan must be revised. Neither of these instances occurred during the development of
HMS.

                                                Page 2
                             National Archives and Records Administration
                                                                    OIG Audit Report No. 08-04




Responsibility for NARA's system development and IT investment process falls under
two groups within the Office ofInformation Services (NH): Systems Development
Division (NHV) and the Information Technology Policy & Administration Division
(NHP). NHV provides project management leadership, in coordination with product
owners, for the requirements collection, development and major enhancements ofIT
applications and system. NHV Project Managers use NARA's Systems Development
Lifecycle document and standardized project management practices to direct and manage
project teams that are responsible for developing and implementing these applications in
NARA. NHV Project Managers are also responsible for cost, schedule, quality,
communications, and risk management of these applications.

NHP is tasked with planning, directing, and administering NARA's IT policies,
programs, and services. The NHP division consists of three branches, including the
Capital Planning Branch (NHPC). NHPC is responsible for planning, directing, and
administering NARA's IT management programs in the areas of Capital Planning and
Investment Control. Specifically, the NHPC branch is responsible for documenting,
executing, reporting, and managing IT Capital Planning functions as defined in NARA
801-2, Review ofInformation Technology (IT) Investments.

Previous OIG audits have identified improvements needed in NARA's process for
investing in IT projects. In 2005, our review found that the "go" decision to upgrade
from the existing operating system was made without comprehensive adherence to the
requirements ofNARA 801-2. According to the OIG report, Review ofNARA 's
Information Technology Investment Management Decide Process Accomplished for the
Novell Software Upgrade Project (Report No: 05-10), NARA officials circumvented the
required Decide Process. Specifically, management expended project funds, i.e., the
computer network manager contractor began working on the software upgrade project
and the necessary project hardware was acquired before the project was approved by the
CIO and the Archivist. In addition, an inadequate Analysis of Alternatives was
conducted for the Novell software upgrade project.

Another OIG Report, Evaluation ofNARA 's Preservation Program (Report No: 05-13),
found that the determination of at-risk records was based on archivists' judgment, which
was not an appropriate means of determining/counting the number of times a record is
referenced and does not supplant the need to have a viable mechanism to evaluation
holdings. Therefore, the report recommended that an electronic mechanism or database
be used to determine the frequency of records being requested or used. Currently, NARA
has a partially automated process to manage hard-copy archival records, but does not
utilize a common, integrated technology application to perform these tasks. To address
this recommendation, NW proposed the development ofHMS. After approval from the
Archivist, a contract was awarded to Optimos in September 2007 to develop HMS. The
contract required HMS to be developed on the Siebel software platform, an Oracle
product.




                                            Page 3
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 08-04


Also, under development is the Archives and Records Centers Information System
(ARCIS), which is an IT system for NARA's Federal Records Center (FRC) Program and
its customers. When fully deployed, the new system will replace legacy systems,
automate and streamline many FRC workflow process, and be the online portal through
which NARA's customer agencies will do business with the FRe. ARCIS is also being
developed on the Siebel platform and has an estimated development cost -redacted, b(2)-.

OBJECTIVE, SCOPE, METHODOLOGY

The objective ofthis audit was to determine whether NARA has adequately managed the
proposal and development ofHMS in accordance with Federal and agency requirements.
Specifically, we (1) determined whether NARA officials prepared an IT Project Proposal;
(2) determined whether project risks were identified; (3) determined whether alternatives,
requirements, costs, and benefits were adequately analyzed; and (4) determined whether
the project was approved in accordance with procedures detailed in applicable NARA
guidance.

We examined applicable laws, regulations, NARA guidance, and other IT -related
guidance, including (a) the Clinger-Cohen Act of 1996; (b) Paperwork Reduction Act of
1995; (c) NARA 801-2, Review ofInformation Technology (IT) Investment, July 6,2006;
and (d) Supplement to NARA 801-2, System Engineering Capital Planning Investment
Management Decide Process, August 18,2003.

To accomplish our objective, we reviewed and analyzed the (a) Summary and Full IT
Project Proposals for HMS; (b) Exhibit 300: Capital Asset Plan and Business Case
Summary for Expanding NARA Online Services (ENOS); (c) results of the Business
Process Re-engineering (BPR) study; (d) Draft version ofHMS Concept of Operations;
(e) Risk Inventory List for HMS; (f) minutes from various meetings regarding HMS; and
(g) Procurement documents relating to the 2007 Contract with Optimos Incorporated.
We also interviewed officials in the Office of Information Services (NH), Office of
Records Services - Washington, DC (NW), Office of Regional Records Services (NR),
and Office of Presidential Libraries (NL).

Our audit work was performed at Archives II in College Park, MD between September
2007 and December 2007. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                            Page 4
                         National Archives and Records Administration
                                                                      OIG Audit Report No. 08-04


 FINDINGS AND RECOMMENDATIONS

 HMS Project Proposal Not Adequate

  The HMS Project Proposal was not developed and executed in full compliance with 

  internal NARA 801-2 implementation requirements. This condition occurred because 

. NH did not ensure that all requirements were met in the HMS proposal. Without a
  complete and accurate project proposal, senior management was not in a position to make
  an informed decision to approve and fund the project.

 NARA 801-2 assigns NH with the responsibility for administering NARA's IT
 investment management process, which includes three phases: Decide, Inform, and
 Learn. The starting point for the Decide phase is the preparation ofthe summary
 proposal for IT projects. The supplement to NARA 801-2, System Engineering Capital
 Planning Investment Management Decide Process, provides guidance to ensure that
 NARA thoroughly analyzes an investment before significant amounts of resources are
 expended. The supplement also provides detailed instructions on the information and
 data that should be included in an IT Project Proposal. Our review of the final HMS
 Proposal found that it lacked:

     (a) A list of assumptions and constraints concerning the HMS project and its
         implementation. Examples of assumptions and constraints include issues related
         to scope, schedule, workload, dependencies, technology, users and stakeholders,
         growth, interfaces, funding, security, organization structure, and legislations.

     (b) An adequate illustration of the current system. Specifically, the current high-level
         process model did not depict the inputs, constraints, outputs, and resources
         employed in executing the processes.

     (c) A full summary ofthe future system. Specifically, the summary ofthe future
         system did not describe the new or modified aspects of user needs, missions,
         objectives, environments, interfaces, and personnel that require a new system.
         The summary also did not address deficiencies or limitations in the current system
         that would make it unable to respond to these factors. Finally, the summary did
         not address:

            a) 	 Pertinent performance characteristics of the proposed system, such as
                 throughput, reliability, maintainability, availability, portability, and
                 usability;

            b) Anticipated operational, organizational, and developmental impacts on the
               user, acquirer, developer, and support organizations; and

            c) 	 Major system components, interconnections among these components, and
                 interfaces to external systems or procedures.



                                              Page 5
                           National Archives and Records Administration
                                                                     OIG Audit Report No. 08-04


   (d) Detail on how the proposed system will impact the identified offices. The
       project's reach and impact description did not describe the number of users that
       will be affected and the extent to which the proposed system will impact their
       work.

   (e) Detail on how HMS links with or depends on other efforts, such as ARCIS and
       ERA.

   (f) A methodology and evaluation criteria for selecting the best alternative.

   (g) Details of the major functional processes and a depiction of information flow in
       the design overview ofHMS.

The Proposal Development team, which included representatives from NW and NHV,
did not follow NARA guidance in developing the HMS Project Proposal. A formal
quality assurance team within NH has not been established as required by NARA 801-2.
Instead, only the Branch Chief responsible for CPIC conducts some verification or
quality assurance activities for each proposal. In the case of the HMS Project Proposal,
this resulted in the failure of cognizant officials to detect and report upon the omissions
cited above.

Additionally, prior to the approval of the HMS Project Proposal, it was reviewed by
various management officials and stakeholders, who provided numerous comments on
the proposal. While most comments were cleared by the product owner, some remained
open in the final version of the proposal. Unresolved comments were brought to
management's attention. NARA 801-2 does not provide for procedures or
responsibilities for handling the comments process for IT proposals. Therefore, the
Information Technology Executive Committee (ITEC) was not made aware ofthe open
comments prior to their approval of the proposal.

Without a complete and accurate project proposal, senior management was hampered in
their ability to make an informed decision as to whether the HMS should be approved
and funded. A poorly planned project, such as the one associated with HMS, places the
project at risk for cost overruns, not meeting project goals, and not being completed
within schedule. A delay in the development ofHMS could affect many other projects
within NARA.

Recommendation 1

The CIO should:

    (a) Develop, implement, and document a formal mechanism to ensure NHV and NHP
        follow the requirements detailed in 801-2 for HMS and all future IT projects.

    (b) Ensure that before advancing to the next development phase ofHMS, the 

        following elements are addressed: 



                                             Page 6
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 08-04




           a)   List of assumptions and constraints, 

           b)   Adequate illustration of the current and future system, 

           c)   Detail on how the proposed system will impact all offices, 

           d)   Detail on links to other efforts, 

           e)   Methodology and evaluation criteria, and 

           f)   Major functional processes. 


Management Comment(s)

Management concurred with the recommendation.

Recommendation 2

The CIO should:

   (a) 	 Establish a fonnal quality assurance team as required by 801-2 and require the
         team work products be maintained in official project files.

   (b) Revise quality assurance requirements in 801-2 to include procedures for 

       handling the comments process for IT proposals. 


Management Comment(s)

Management concurred with the recommendation.


Project Risk Assessment Incorrect

HMS project risks were not correctly and adequately identified and assessed prior to
approval of the HMS proposal. This occurred because the Proposal Development Team
did not follow the guidance in the Supplement to NARA 801-2 for detennining and
assessing the project's risk. In addition, due to poor quality assurance oversight, the
incorrect risk levels were not identified and corrected. By incorrectly identifying project
risk, senior management may not have reviewed the categorized medium risk project
proposal with the level of scrutiny actually warranted by a high risk project.

The Clinger-Cohen Act requires each agency to establish a process for assessing and
managing the risks of its IT acquisitions, which includes identifying risks of investments.
The Supplement to NARA 801-2, System Engineering Capital Planning Investment
Management Decide Process, establishes this process and provides guidance to ensure
that NARA thoroughly analyses an investment before significant amounts of resources
are expended. Included in this supplement is guidance for assessing the project's overall
risk level and criteria for ranking individual risk factors.



                                             Page 7
                          National Archives and Records Administration
                                                                         OIG Audit Report No. 08-04


According to the Supplement to NARA 801-2, if any of the primary risk factors are
ranked High, the overall ranking for the project is automatically considered High. In the
HMS proposal, the project was given an overall risk level of Medium, even though one of
the primary risk factors, Technical Deployment, was rated as High. In addition, two
secondary risk factors, Cross-Functional Data and Development Effort, were given
incorrect risk ratings. Both were ranked as Medium, but according to the risk criteria in
the Supplement to NARA 801-2, both should have been ranked as High. Exhibit 1 was
taken from the HMS proposal and shows the incorrect risk ratings.

                        Exhibit 1: Excerpt from HMS Risk Assessment


Cross-Functional Data        The level and type of data sharing between multiple systems.
  Ranking                    Ranking Conditions
   DHigh                     Data to be shared with other systems is not defined in the NARA data model.
   [gj Medium                Data to be shared with other systems is already defined in the NARA data model.
   D Low                     Data will not be shared with other systems.

Development Effort           The anticipated length oftime from initiation of the concept development
                             foundational activity through completion of the deployment and acceptance
                             foundational activity (as defined by NARA 805, Systems Development Life Cycle).
  Ranking                    Ranking Conditions
  DHigh                      Greater than 18 months.
  [gj Medium                 6 to 18 months.
  D Low                      Less than 6 months.
      The development effort was ranked medium because HMS has a concept-to-deploy
      interval of greater than 18 months.



As shown in the table above, Cross-Functional Data should have been ranked as High,
not Medium, because the data to be shared with other system was not defined in the
NARA data model. Also, Development Effort should have been ranked as High because
as clearly stated in the comment HMS has a concept-to-deployment interval of greater
than 18months.

We also reviewed the list of open risks for the project, which is maintained by HMS
Project Manager. Each of these risks was rated on their probability and severity. Open
items on this list included:

    (a) Lack of clarity ofthe ERA HMS interface;
    (b) Unknown requirement for interfaces to/from HMS and external applications;
    (c) Data cleanup and migration/integration may not be completed in a timely manner
        and will impact budget;
    (d) The budget amount to develop the entire HMS system may not be approved;
    (e) Implementation of bar-coding technology will impact budget and resources; and
    (f) Contractor delivered project schedule may not coincide with Product Owner
        expectations.

                                               Page 8
                            National Archives and Records Administration
                                                                     OIG Audit Report No. 08-04




These risks were not included in the project proposal presented ITEC, even though most
of these risks were identified prior to ITEC's approval ofHMS. Although NARA 801-2
does not require these risks to be included in the project proposal, it does suggest that
pertinent issues, such as risk factors, be included in the Other Issues section. In our
opinion, significant risks, such as those listed in the HMS risk list, should have been
included in the project proposal and presented to ITEC.

The Proposal Development Team did not follow NARA guidance in preparing the Project
Risk Assessment. Also, the team did not provide any additional risk information in the
proposal section labeled: Other Issues, as suggested by NARA guidance. Also, due to
limited quality assurance procedures, the incorrect risk levels were not identified and
corrected. Since a formal quality assurance team within NH has not been established
only the -------------redacted, b( 6)------------ conducts the quality assurance review for
each proposal. When brought to the attention of ------------redacted, b(6)----------, he
agreed with the findings and acknowledged that the incorrect risk levels were an
oversight during his quality assurance review and should have been corrected.

Consequently, decision makers were not provided with an accurate risk level for the
HMS project. According to NARA guidance, the data contained in the Full Proposal
should be presented in a level of detail commensurate with the investment's cost, impact,
technical risk, and reach. Given the cost, impact, technical risk and reach ofHMS, the
project should have been rated as High risk and its project proposal should have included
a high level of detail. By incorrectly identifying the project as medium risk, senior
management may not have reviewed the project proposal with the level of scrutiny
warranted by a high risk project. Also, by not fully identifying risks, management may
have overlooked important risks that could have an adverse impact on the successful
implementation ofHMS.

Recommendation 3

The CIO should establish a formal protocol to accurately recognize project risk levels and
all identified risks associated with project proposals.

Management Comment(s)

Management concurred with the finding and recommendation.


Analysis of Alternative, Requirements, Costs, and Benefits Was Not Sufficient

The alternatives, requirements, costs, and benefits were not sufficiently analyzed prior to
approval ofthe project. This condition occurred because the Proposal Development
Team did not complete all of the analysis requirements in NARA 801-2, which requires
that proposals have their costs, benefits, and risk analyzed in-depth prior to funding
projects. Without a complete and accurate analysis ofthe project, senior management


                                             Page 9
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 08-04


was hampered in their ability to make an informed decision to approve and fund the
project.

                                  Analysis ofAlternatives
The analysis of alternatives was not adequately completed for HMS. The HMS Proposal
did include an analysis of alternatives, with at least two feasible alternatives as required
by NARA 801-2; however, the method for selecting the preferred alternative was not
adequately described as required by NARA guidance. The selection of the preferred
alternative appears to be only based on the costlbenefit analysis. This analysis did not
describe the reason for selecting the preferred alternative, other than it was the most cost
effective. It appears that no other evaluation criteria were taken into consideration. Also,
two of three alternatives offered were discounted due to NARA's inability to manage
large projects and contractors. These two alternatives were to integrate the HMS
functional requirements within the Electronic Records Archives project and outsource to
a provider.

Lastly, NARA officials did not adequately consider other Commercial-Off-The-Shelf
(COTS) products for HMS. We found that an evaluation of available COTS products
was performed for ARCIS, which appeared to be thorough and provided a justification
for the selection of Siebel 7.8 Software. However, a similar analysis was not performed
for HMS and we did not find any indication that other COTS alternatives were
thoroughly considered. According to NH officials, the decision to use the Siebel
platform for HMS was based on NARA's past experience with the product and since
NARA was already using it, it would be a lower cost investment. An NH official stated
that other products and options were not analyzed because that work was completed
during the planning of ARCIS. However, the analysis of alternatives for ARCIS was
completed in 2005, two years prior to the approval ofHMS. Therefore, new, more
technologically enhanced and robust products may have been available for the
development ofHMS, but were not considered.

                                   Analysis ofRequirements
We found that the requirements analysis was performed during the Business Process Re­
engineering (BPR). However, the BPR did not address flexibility in some requirements
that may be needed for NR and NL inventory and space management. Specifically, the
HMS requirements analysis includes high level requirements that may not be mandatory
for NR and NL when the system is implemented at field sites. In addition, we noted that
HMS and ARCIS have similar requirements in the areas of inventory and space
management. For example, three of the requirements for HMS (Stack Attribute, Shelving
Scheme, Identify empty space/location) are included in the space management
requirement for ARCIS. However, these similar requirements were not noted or
identified in either project plan.

                                  Cost/Benefit Analysis
NARA guidance requires a CostlBenefit Analysis for the selected alternative, which
includes an investment analysis, discussion ofproject costs, and sensitivity analysis.
Each of these sections was included in the HMS Proposal; however, we noted omissions


                                            Page 10
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 08-04


and discrepancies in these sections. For example, we found that the cost ofthe project
was understated. The initial capital investment includes only enough PDAs and
computer monitors for the two research rooms at Archives I and Archives II. Additional
equipment necessary for research rooms at other sites was not included in the investment
analysis. We were informed that these research rooms have less volume and NW did not
think these rooms would need the same type of equipment. Further, officials in NW were
not certain what other equipment and hardware would be needed for HMS.

Also, a flawed return on investment (ROI) figure was presented to management officials.
The ROI for HMS on Siebel was presented as 116.88%, but the ROI should have been
16.88%. An incorrect ROI was also used in the sensitivity analysis, which states that the
ROI would be positive (86.39%) even ifHMS costs were underestimated by 15% and
HMS benefits were overestimated by 15%. However, the correct ROI for this scenario is
-13.61 %, which is not positive. Finally, the discussion of project costs did not include a
statement indicating whether funding was available.

                                 Analysis ofProject Benefits
We found that the project benefits were identified in the HMS project proposal; however,
we identified several problems in the analysis ofHMS benefits. Specifically, we
identified several issues with the calculation ofthe potential savings, such as:

   (a) The use of a small sample size and limited observations as a basis for the 

       calculation of the potential savings for-Archives I and Archives II. 


    (b) The analysis of project benefits did not include all stakeholders. NL and NR were
        not included in the observations of project benefits.

    (c) An assumption that HMS would enable current users to increase productivity by
        5% was used to calculate 62.4% of the potential savings associated with HMS.
        This statement is not supported by a sufficient and complete analysis.

    (d) The failure to provide sufficient support for 30.7% ofthe total savings associated
        withHMS.

In identifying potential costs savings, NHV and NW relied exclusively upon a limited
analysis. NHV followed NARA technicians at Archives II, who pull records requested
by researchers and re-file them after use, for only 2 four-hour periods (both in the
morning). These limited observations were used to calculate the potential labor savings
of about $481,000 over a four year period for Archives I and Archives II. No other
analysis was performed.

The Proposal Development Team also did not complete all ofthe analysis requirements
in NARA 801-2. According to NH officials, management relied on the work performed
under ARCIS to satisfy some of the required project analysis. However, independent
analysis should have been conducted and included in the project proposal for HMS since
it was considered a separate project. Also, the analysis did not represent the entire


                                            Page 11
                          National Archives and Records Administration
                                                                    OIG Audit Report No. 08-04


project and include all stakeholders, Finally, the CostlBenefit Template and sensitivity
analysis included an incorrect formula for the calculation of return on investment. The
formula used was total benefits divided by total costs', However, the more commonly
used formula for ROI is equal to gain from investment minus cost of investment divided
by the cost of the investment.

Consequently, decision makers were not provided with a complete analysis of
alternatives, requirements, costs, and benefits. Without a complete and accurate analysis
of the project, senior management was hampered in their ability to make an informed
decision to approve and fund the project. In addition, incorrect analysis may have lead
senior management to approve a project at risk for cost overruns, not meeting goals, and
not being completed within schedule. By not adequately completing these analyses,
management may not have approved the best project for their limited resources.

Recommendation 4

The CIO should:

   (a) Ensure that employees with responsibilities for conducting project analysis
       receive additional training for investment analysis regarding requirements,
       alternatives, and costs/benefits.

   (b) Establish validation measure to ensure the correct formula is used in future
       projects' CostlBenefit Templates and sensitivity analysis.

Management Comment(s)

Management concurred with the finding and recommendation.


Approval of HMS Not in Accordance with NARA Guidance

The HMS summary proposal was not approved per NARA 801-2 prior to proceeding on
to the full proposal stage. Subsequently, the project was ratified by ITEC without a
formal vote, based upon reported assumptions and assurances that may not be realized.
In our opinion, this condition existed because specific criteria in the project development
stage was not adhered to and the ITEC member voting methodology was neither defined
nor implemented to include the case of the HMS ratification process. The process to be
used for evaluating and approving IT project proposals is defined in NARA 801-2.
NARA Notice 2005-251, Establishment ofInformation Technology Executive Committee,
also outlines NARA's approval process for IT investments. Without an adequate
approval process, there is no guarantee that the HMS and similar IT projects were
approved in the best interest ofNARA. The effect is that finite NARA resources may be
expended on a project that was not thoroughly analyzed and planned and that alternative
solutions were not afforded proper consideration.



                                           Page 12
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 08-04


According to NARA 801-2, the starting point to the Decide phase is the preparation and
cons\deration of summary proposals for IT projects. Summary proposals are examined to
determine whether projects meet minimal requirements. According to the NARA 801-2
supplement, part of the screening process should include preparing a summary proposal
and deciding on whether to develop a full proposal. Proposals that pass this screening
process have their costs, benefits, and risks analyzed in-depth and documented in the Full
Proposal. With the information documented in the Full Proposal, the senior management
decision-making body, ITEC, makes decisions about which projects to select for funding.

The decision process used to approve the HMS project was not in accordance with
NARA guidance and best business practices. Specifically,

   (a) The HMS Summary Proposal was not officially approved by the Archivist and
       CIO before development of the full Project Proposal, as required by the
       Supplement to NARA 801-2.

   (b) ITEC approved the Full Project Proposal despite disagreement among various
       stakeholders.

   (c) 	The Project Proposal was approved by ITEC without an official vote or signature
        page.

In 2005, a Summary Proposal was prepared for HMS; however, the proposal was not
reviewed or officially approved by ITEe. Similarly, the summary proposal for the
Business Process Re-engineering (BPR) effort in support of the HMS project was not
reviewed or official approved by ITEC. Although not required by NARA guidance, we
believe that the BPR proposal should have been presented to or reviewed by ITEC
members.

From our interviews with members ofITEC and officials ofNR and NL, we found that
the Full Project Proposal was approved despite disagreement and misunderstanding
among stakeholders. Two organizations, NR and NL, expressed disagreement with HMS
and may not adopt the system within their organization. For example, representatives of
NL stated that they support the preservation and security aspects ofHMS; however, they
will not make the determination to use HMS until they can review the prototype. After
they review the prototype, they will determine whether the system fits NL's requirements
for permanent hardcopy documents. Finally, neither a voting process nor a signature
page was used to approve the HMS proj ect.

Management has not put in place an adequate process for approving IT projects. NH
officials stated that when a project proposal is presented, if no major objections, it is
considered approved by ITEC and ready for the Archivist's formal approval. Also, the
HMS project proposal was approved two days after first presented to ITEC, which did
not provide ITEC members sufficient time to provide feedback. Finally, a formal voting
process is not detailed in the ITEC charter included in NARA Notice 2005-251. The



                                           Page 13
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 08-04


ITEC Charter designates voting and non-voting members; however, voting procedures
are not included in the charter and actual voting has not occurred to date.

If a formal approval process is not established and documented, there is no guarantee that
the project was approved in the best interest ofNARA and its limited resources. Further,
given the information in the project proposal and the time constraints, ITEC was not in a
position to adequately discharge their duties and responsibilities. The lack of a vote
further negates the value of the committee.

Recommendation 5

The Archivist should ensure that:

   (a) The ITEC decisions and approval process are documented via a formal voting
       process.

   (b) The CIO or designee provides ITEC members with project proposals, which
       include all required elements, and develop timeframes for proposals to be
       submitted, reviewed, and approved.

Management Comment(s)

Management concurred with the recommendation.


Enterprise Architecture

While the development ofHMS fits into NARA's enterprise architecture, NR's use of
ARCIS for inventory and space management of hardcopy permanent documents would
not be in line with NARA's enterprise architecture and would duplicate some HMS
functions. This condition exists because those responsible for crafting the HMS project
proposal may not have considered all requirements necessary to meet the needs ofNARA
organizations. GAO suggests that agencies have an established information technology
architecture which systems and projects are expected to follow. Likewise, OMB requires
agencies to avoid duplication with inter-agency investments. IfHMS and ARCIS are
developed to meet similar requirements, they will be duplicative systems, which wi11lead
to extra and unnecessary development costs for both systems.

During the approval process, the Architecture Review Board (ARB) determined that
HMS was appropriate for NARA's enterprise architecture; however, NR's intended use
of ARCIS for inventory and space management is not in line with NARA's enterprise
architecture. When we met with the CIO, she explained that ARCIS would handle the
inventory and space management of Non-Electronic and Electronic Temporary records,
whereas HMS would handle the inventory, space, preservation, and circulation
management of Non-Electronic Archival Records. However, from our meetings with
NR, we learned that they intend to use the ARCIS space and inventory modules for


                                           Page 14
                         National Archives and Records Administration
                                                                        DIG Audit Report No. 08-04


pennanent, temporary and accessioned records. In our opinion, the use of ARCIS for
these functions would be duplicative of HMS.

OMB Memorandum M-05-23, Improving Information Technology (IT) Project Planning
and Execution, requires agencies to avoid duplication by leveraging inter-agency
investments to support common missions or other common requirements. The GAO
guide, Assessing Risks and Returns: A Guide for Evaluating Federal Agencies' IT
Investment Decision-making, suggests that agencies have an established infonnation
technology architecture that systems and projects are expected to follow. The NARA
Enterprise Architecture Infonnation Systems Definitions provides the high-level of the
infonnation systems that NARA requires to support the business processes that are
currently defined in the Business Architecture. It provides a baseline infonnation system
concept against which NARA can align, track, and manage its IT systems.

From our interviews with officials from NL and NR, we learned that those responsible
for crafting the HMS project proposal may not have considered all of the requirements
necessary to meet the needs ofNL and NR. Further, there appears to be a lack of
communication between the organizations deVeloping of these two systems. Also, we
noted that an executive official has not mandated the use ofHMS for inventory and space
management of pennanent documents.

IfHMS and ARCIS are developed to meet similar requirements, they will be duplicative
systems. This will led to extra and unnecessary development costs for both systems. In
addition, duplicate systems could cause confusion for the users of each system. Finally,
unless reliable interfaces are established between the two systems, the agency will not be
able to track preservation needs across the agency.

Recommendation 6

The Archivist should direct the CIO to clearly delineate which functions will be managed
by HMS and ARCIS.

Management Comment(s)

Management concurred with the finding and recommendation.




                                           Page 15
                         National Archives and Records Administration
                                              ···rchives and Records Administration
                                                                                                8601 Adelphi Road
                                                                               College Park, Maryland 20740-6001


       Date:      March 6, 2008

       To:        01G

       From:      NPOL




•I     Subject:
                  Comments on OrG Draft Report 08-04, Audit ofNARA's Developmen~ ofHMS


                  Thank you for the opportunity to comment on this draft report. We also appreciate the time
                  spent by the auditor to work with us regarding concerns in the original version of this draft
                  report. NPOL is sending this memo on behalf of all the affected offices: NH, NL, NR, and
                  NW. We have two remaining comments on the draft report.
I                 First, on page 6 of the draft report, it is unclear to NW staff which comments are left



-                 unresolved. We ask that the fmal version of this report be more specific and assess whether
                  these open items would have a major impact on the functionality and cost ofthe proposed
                  system.                                                     .



-                 Second, page 13 of the draft report, states that the HMS Summary Proposal was not reviewed
                  or officially approved by rTEC in 2005. While we note that the OIG is of the opinion that the



-
!
                  summary product plan for HMS should have been reviewed by the ITEC, the CPIC policy
                  was followed as written and NH did not violate this or any other policy. Further, NH and NW
                  briefed various NARA management groups about HMS on a number of occasions. For
                  example, the cro briefed NR on January 11,2007, NW on January 19, 2007, and the
                  Lifecycle Guidance Team on January 31, 2007, which includedND, NL, and other NARA
                  office heads.

                  We concur with all recommendations in the draft report and will proceed with an action phn
                  to address them.

I
I              d~CJykC;~
                  Susan M. Ashtianie
                  Director

~                 Policy and Planning Staff




•I 

I

I                                        NARA's web site is http://www.archives.gov
